APPENDIX

A

USCA11 Case: 20-14588

Date Filed: 04/20/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14588-C

NORRIS WILLIAMS,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
To merit a certificate of appealability, Norris Williams must show that reasonable jurists
would find debatable both (1) the merits of an underlying claim, and (2) the procedural issues that
he seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Because Williams has failed to make the requisite showing, his motion for a certificate of
appealability is DENIED.
Williams’s motion for leave to proceed on appeal in forma pauperis is DENIED AS
MOOT.

/s/ Charles R. Wilson
UNITED STATES CIRCUIT JUDGE

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 1 of 16 PagelD 94

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
NORRIS WILLIAMS,
Petitioner,
v.
Case No.: 2:19-cv-271-FtM-38-MRM
2:15-cr-149-FtM-38-MRM
UNITED STATES,
Respondent.
OPINION AND ORDER1
Petitioner Norris Williams, represented by counsel, filed a Motion Under
28 U.S.C. § 2255 to Vacate, Set Aside or Correct Sentence and Memorandum
in Support (Doc. 1, § 2255 motion).2 The Government filed a response in
opposition (Doc. 7). The next day, Williams amended his motion adding a
footnote (Doc. 8, amended § 2255 motion). In an abundance of caution, the
Court directed the Government to file a response to the amended motion, and
the Government reincorporated its initial response in opposition (Doc. 12).
Because Respondent alluded to statements made by Petitioner’s defense
counsel in its response, the Court directed Respondent to submit an affidavit

1 Disclaimer: Documents hyperlinked to CM/ECF are subject to PACER fees. By using
hyperlinks, the Court does not endorse, recommend, approve, or guarantee any third parties
or the services or products they provide, nor does it have any agreements with them. The
Court is also not responsible for a hyperlink’s availability and functionality, and a failed
hyperlink does not affect this Order.
2 The Court refers to the docket in the instant case as “Doc.” and Williams’ underlying
criminal docket at 2:15-cr*149-FtM-38-MRM as “Cr. Doc.”

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 2 of 16 PagelD 95

from defense counsel and directed Petitioner to respond to each allegation in
defense counsel’s affidavit under penalty of perjury. (Doc. 14).

Respondent

filed the sworn affidavit of Williams’ appointed defense counsel David Joffe.
(Doc. 15-1).

In reply, Petitioner filed an affidavit referring the Court to

portions of the sentencing transcript. (Doc. 16). Based upon the record, the
Court denies the § 2255 motion, as amended.
BACKGROUND
On October 28, 2015, Williams was charged in a four-count indictment
with three counts of Possession with Intent to Distribute and to Distribute a
Detectable Amount of Heroin, under 21 U.S.C. §§ 841(a)(1), (b)(1)(C), and one
count of Possession with Intent to Distribute One Kilogram or More of Heroin,
under 21 U.S.C. §§ 841(a)(1), (b)(l)(A)(i). (Cr. Doc. 12). After a three-day trial
a jury found Williams guilty of all four counts. (Cr. Doc. 80). On October 27,
2016, after determining Williams was subject to enhanced penalties as a
Career Offender under USSG § 4B(l)(b)(l), the Court imposed the following
sentence: 240 months in prison on counts one through three; a concurrent 360
months in prison on count four; three years of supervised release on counts one
through three; and a concurrent five years of supervised release on count four.
(Cr. Doc. 108). Williams appealed his conviction and sentence. (Cr. Doc. 110).
The Eleventh Circuit affirmed Williams’ conviction and sentence, and the
United States Supreme Court denied his petition for writ of certiorari.

2

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 3 of 16 PagelD 96

States v. Williams, 718 F. App’x 890, 898 (11th Cir. 2017), cert, denied, 138 S.
Ct. 1709 (2018).
Williams initiated this case on April 24, 2019 by filing the initial § 2255
motion raising five grounds for relief.

(Doc. 1).

The Government filed a

response in opposition. (Doc. 7). The Government concedes the § 2255 motion,
as amended, is timely. (Doc. 7, p. 5). The Court agrees. But the Government
argues that the grounds raised in the amended § 2255 motion are procedurally
barred, refuted by the record, or without merit. (Id., pp. 8-20).
EVIDENTIARY HEARING
A court must hold an evidentiary hearing “unless the motion and the
files and records of the case conclusively show that the prisoner is entitled to
no relief.” 28 U.S.C. § 2255(b). “If the petitioner alleges facts, that if true,
would entitle him to relief, then the district court should order an evidentiary
hearing and rule on the merits of his claim.” Griffith v. United States, 871 F.3d
1321, 1329 (11th Cir. 2017) (quoting Aron v. United States, 291 F.3d 708, 71415 (11th Cir. 2002)). A petitioner need only allege, not prove, facts that would
entitle him to relief.

Id.

However, the alleged facts must be reasonably

specific, non-conclusory facts. Aron, 291 F. 3d at 715, n.6; see also Allen v.
Secy, Fla. Dep't ofCorr., 611 F.3d 740, 745 (11th Cir. 2010), cert, denied, 563
U.S. 976 (2011) (“The court need not hold a hearing where the claims are
“conclusory allegations unsupported by specifics.”). Further, if the allegations

3

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 4 of 16 PagelD 97

are “affirmatively contradicted by the record” and “patently frivolous,” the
court does not have to hold an evidentiary hearing. Id.
Williams does not request an evidentiary hearing. (See generally Doc.
8). The Court, however, recognizes its obligation under 28 U.S.C. § 2255(b)
and independently finds an evidentiary hearing is not warranted.
LEGAL STANDARD
A prisoner in federal custody may move for his sentence to be vacated,
set aside, or corrected on four grounds: (1) the imposed sentence violates the
Constitution or laws of the United States; (2) the court lacked jurisdiction to
impose the sentence; (3) the sentence was over the maximum authorized by
law; or (4) the imposed sentence is otherwise subject to collateral attack. 28
U.S.C. § 2255(a). A § 2255 motion “may not be a surrogate for a direct appeal.”
Lynn v. United States, 365 F.3d 1225, 1232 (11th Cir. 2004) (stating § 2255
relief is “reserved for transgressions of constitutional rights and for that
narrow compass of other injury that could not have been raised in direct appeal
and would, if condoned, result in a complete miscarriage of justice” (internal
quotations omitted)). The petitioner bears the burden of proof on a § 2255
motion. Rivers v. United States, 771 F.3d 1306, 1316 (11th Cir. 2015) (citation
omitted).
Generally, “claims not raised on direct appeal may not be raised on
collateral review unless the petitioner shows cause and prejudice.” Massaro v.

4

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 5 of 16 PagelD 98

United States, 538 U.S. 500, 504 (2003). This procedural default rule “is a
doctrine adhered to by the courts to conserve judicial resources and to respect
the law’s important interest in the finality of judgments.” Id. There is an
exception: ineffective assistance of counsel claims. Massaro, 538 U.S. at 504
(holding failing to raise an ineffective-assistance-of-counsel claim on direct
appeal does not bar the claim from being brought in a later, appropriate
proceeding under § 2255).
Criminal defendants have a Sixth Amendment right to reasonably
effective assistance of counsel. Strickland v. Washington, 466 U.S. 668, 686
(1984). A defendant claiming ineffective assistance of counsel must show that
(1)

“counsel’s

representation

fell

below

an

objective

standard

of

reasonableness”; and (2) the deficient performance resulted in prejudice. Id.
at 687.

See Roe v. Flores-Ortega, 528 U.S. 470, 477 (2000) (stating the

Strickland test applies to claims that counsel was constitutionally ineffective
for failing to file a notice of appeal). Failing to show either Strickland prong is
fatal. See Kokal v. Secy, Dep't ofCorr., 623 F.3d 1331, 1344 (11th Cir. 2010)
(stating “a court need not address both Strickland prongs if the petitioner fails
to satisfy either of them”).
“The reasonableness of a counsel’s performance is an objective inquiry.”
Chandler v. United States, 218 F.3d 1305, 1315 (11th Cir. 2000) (footnote and
citations omitted). “And because counsel’s conduct is presumed reasonable, for

5

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 6 of 16 PagelD 99

a petitioner to show that the conduct was unreasonable, a petitioner must
establish that no competent counsel would have taken the action that his
counsel did take.” Id. (footnote and citations omitted). Courts “must judge the
reasonableness of counsel’s challenged conduct on the facts of the particular
case, viewed as of the time of counsel’s conduct.” Strickland, 466 U.S. at 690.
“Judicial scrutiny of counsel’s performance must be highly deferential. It is all
too tempting for a defendant to second-guess counsel’s assistance after .. . [an]
adverse sentence^]” Id. at 689 (citation omitted). Also, “Strickland encourages
reviewing courts to allow lawyers broad discretion to represent their clients by
•pursuing their own strategy.” White v. Singletary, 972 F.2d 1218, 1221 (11th
Cir. 1992).
For the prejudice prong, the petitioner must show “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at
694. Against this backdrop, the Court considers each of Williams’ claims.
DISCUSSION
A.

Ground One

In Ground one, Williams raises two distinct claims alleging defense
counsel was constitutionally ineffective. First, Williams argues that appointed
defense counsel, David Joffe, did not provide him with his “complete discovery

6

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 7 of 16 PagelD 100

or documents” pertaining to his charges. (Doc. 8 at 1-2). Williams claims he
asked Joffe for discovery and other evidence being used against him, but Joffe
provided him only edited video tapes. Williams alleges the unedited tapes
would have proven that the confidential informant (Cl) was present at the drug
sale, that he gave the drugs to the Cl, not Agent Gonzalez. Petitioner claims
if he “had the opportunity to present the series of events that transpired it
would have given Petitioner an opportunity to present that he was induced to
commit the crime.” (Id., p. 2). Williams conclusory claim is insufficient and
lacks factual specificity. Other than Williams alleging that the Cl was present
for one drug purchase, he provides no specific facts to support a defense of
inducement. Other than one video, Petitioner does not identify what discovery
or documents counsel failed to produce. Petitioner’s reference to “the series of
events” is similarly vague. The Cl did not testify. Williams, however, testified
in his own defense and admitted he was drug dealer and sold heroin three
times to an undercover officer. Williams only contested the amount the drug
quantity he intended to buy on October 20, 2015, arguing he wanted to buy a
half instead of a full kilogram. Williams challenged the drug quantity at trial
and sentencing. He provides no support that the unedited video tapes or any
other discovery would have established his innocence or that he was induced
to commit the crimes, and the Court finds the claim insufficient and conclusory.
Cowan v. United States, No. 17-12702-D, 2018 WL 6919887, at *6 (11th Cir.

7

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 8 of 16 Page!D 101

Sept. 11, 2018).

Therefore, the Court dismisses this first claim of

ineffectiveness in Ground One as meritless.
Williams intertwines within his discovery claim an argument that Joffe
was ineffective for assuring him that “he would only receive 12 years” if he
went to trial. (Doc. 8, p. 3). Williams states he went to trial because Joffe
assured him he only faced 12 years if convicted. (Id.). The Government argues
the record refutes Williams’ claim. (Doc. 7, p. 10).
“The standard in Strickland applies to challenges of guilty pleas, in
addition to jury convictions.” Bonita v. United States, No. 2:16-cv-729-FtM29NPM, 2019 WL 4673809, at *5 (M.D. Fla. Sept. 25, 2019). Counsel has a
“duty to advise a defendant, who is considering a guilty plea, of the available
options and possible sentencing consequences.” Duarte v. United States, No.
12-22012-Civ-LENARD, 2013 U.S. Dist. LEXIS 201606, *34-35 (S.D. Fla Mar.
20, 2013) (citing Brady u. United States, 397 U.S. 742, 756 (1970)).
Williams does not specify the circumstances surrounding Joffe’s alleged
assurances that he would only get twelve years if he proceeded to trial on all
fours counts and was found guilty. For its part, the Government filed an
affidavit from Joffe. (Doc. 15-1). Joffe denied ever telling Williams he faced 12
years. Joffe is an experienced criminal defense lawyer and has “acted as
defense counsel in federal criminal cases on hundreds of occasions” including
cases involving “the federal Controlled Substances Act.” (Id. at 1, H 2). Joffe

8

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 9 of 16 PagelD 102

is familiar with the federal sentencing guidelines and explained that each of
the first three counts carried a maximum term of 20 years and the fourth count
carried a minimum term of imprisonment of 10 years and maximum life term.
(Id. at 2-3, U 5). Joffe is adamant he never told Williams he would face twelve
years and explains how it contradicts the penalty framework of the Controlled
Substances Act. (Id. at 2,1 6). Joffe explains that Williams was not willing to
plead guilty to the kilogram threshold in the fourth count but was only willing
to plead if the government offered a plea for a lesser quantity in Count Four.
(Id., at 2, U 7). Joffe’s sworn statements are supported by the colloquy with the
Court on the first day of trial when the Court inquired whether any offers were
extended to Williams. (Cr. Doc. 89 at 15-16).3

3 THE COURT: Did you extend any offers to the defendant?

MR. JOFFE: Yes, Your Honor. Throughout the course of my appointment in this case, I had
discussed with my client the amount of heroin that he believed he was responsible for. Mr.
Williams’ position is, or it’s the position of the defense that we’re responsible for half a kilo
or less of heroin, no more than half a kilo of cocaine. I have discussed that with AUSA Robert
Barclift. Mr. Barclift, he was I guess amenable to my position, went to Mr. Casas for
permission, Mr. Casas said, no, that if Mr. Williams wanted to plea, he would have to plea to
the entire amount and that we could argue the amount at sentencing. I discussed that with
Mr. Williams at least twice if not three times, and it was our position that if Mr. Williams
pleas to what’s in the indictment that he’s locked into an amount, and it makes it very
difficult for sentencing purposes to argue that it theoretically should be less. I think in the
vein of trying to work it out, Mr. Barclift created the jury instructions with an entrapment
instruction, as well as with the amounts of heroin that the government may or may not be
able to prove, so that’s where we are. I discussed that with Mr. Williams, and Mr. Williams’
position was I’m not going to plea to a full kilo of heroin, so that’s where we are. And really
the only issue at trial for us, well, one of the issues is the amount.
THE COURT: Understood. And, Mr. Williams, that’s correct?

9

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 10 of 16 PagelD 103

The Court ordered Williams, after reviewing Respondent’s affidavit, to
advise the Court of the following information: (1) whether Williams accepted
or rejected each paragraph in Joffe’s affidavit; and (2) the circumstances
attendant to counsel telling him he only faced twelve years after trial. (Doc.
14 at 2). The Court warned Williams that if he “failed to timely file the Sworn
Statement under penalty of perjury, the Court will accept the statements in
the attorney’s affidavit as stipulated and agreed to by Williams.” (Id. at 2-3).
Although Williams filed a timely sworn statement, he neither (1) accepted or
rejected any paragraph of Joffe’s affidavit, nor (2) explained the circumstances
attendant to counsel telling him he only faced twelve years. (Doc. 16). Instead.
Williams reiterated that Joffe told him he only faced twelve years specifying
no circumstances surrounding this representation, and then referred to
various portions of the sentencing transcript, which provide no support for his
claim. (Id. at 2 (citing Cr. Doc. 149 at 27-28)). The portion of the sentencing
transcript Williams refers to is Joffe’s argument at sentencing on another

THE DEFENDANT: Yes.
THE COURT: You’ve had those discussions with your counsel and you feel comfortable and
confident that you wish to go to trial in this case?
THE DEFENDANT: If they would have gave me the plea, I would have pled out.
THE COURT: All right. But you do have a dispute with the amount, so it’s your choice to go
to trial and make them prove the amount?
THE DEFENDANT: Yes, they kept pushing more drugs on me.

10

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 11 of 16 PagelD 104

unrelated issue—whether Williams should be credited with possession of a
whole or half a kilo of heroin. Likewise, at his arraignment, the Court advised
Williams of the maximum potential sentence he faced. (Cr. Doc. 3). The Court
thus denies Williams’ claim that Joffe told him he only faced a maximum of 12
years as factually insufficient and otherwise refuted by the record.
B.

Ground Two

Williams next claims his Fifth Amendment Due Process Rights were
violated because “he was not given the inducement instruction” he “requested.”
(Doc. 8 at 4). Although framed as a due process claim, the claim is one of trial
court error. The Court never considered an “inducement instruction.” To the
extent that Williams is referring to the standard “entrapment” instruction or
the “sentencing entrapment” instruction, the record reveals the Court
considered both at length. Joffe did request a jury instruction on entrapment
and sentencing entrapment (although he later withdrew his request for a
sentencing entrapment instruction), and the Court did deny the request after
hearing argument. (Cr. Doc. 90 at 240-258; Cr. Doc. 79- final jury instructions).
A district court’s refusal to give jury instructions on various defenses do
not raise an issue of due process. See Puig v. United States, No. 8:01-cr-252-T17MSS, 2006 WL 1540260, at *3 (M.D. Fla. May 31, 2006) (finding that
collateral attacks on a court’s refusal to give various jury instructions were not
constitutional claims). Instead, the Eleventh Circuit reviews these issues for

11

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 12 of 16 PagelD 105

reversible error on appeal. See United States v. Jordan, 582 F.3d 1239, 1247
(11th Cir. 2009) (The Eleventh Circuit “review the district court’s refusal to
give a requested jury instruction for abuse of discretion.”). Williams should
have, but did not, raise this issue on direct appeal. See Williams, 718 F. App’x
at 890. Nor has Williams shown cause for not appealing the issue or prejudice.
See Massaro, 538 U.S. at 504 (stating “claims not raised on direct appeal may
not be raised on collateral review unless the petitioner shows cause and
prejudice.” (emphasis added)).

The closest Williams comes to claiming

prejudice is his claim he “was not able to fully develop his [entrapment] theory
of the case defense” because the Court did not give an entrapment instruction.
(Doc. 8 at 6). The record refutes this argument. Joffe argued government
entrapment in his closing argument, and Williams took the stand and testified
to the elements of government entrapment. See (Cr. Doc. 90 at 190-230)
(Williams’ testimony he was subject to government entrapment); (Cr. Doc. 91,
pp. 26-30) (Defense Counsel’s Closing argument on government entrapment).
Therefore, Williams has shown neither cause nor prejudice and Ground Two is
procedurally barred.
C.

Ground Three

Williams assigns ineffectiveness to Joffe because he did not object, on
Crawford grounds, to the Government’s introduction of laboratory reports and
“forc[e] the Government to produce the actual analyst.” (Doc. 8 at 8). The

12

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 13 of 16 PagelD 106

record refutes this claim. The Government introduced the lab reports through
two “actual analyst[s].” (Cr. Doc. 89 at 256-261, 274-279). And Joffe did object
to introducing the reports. (Cr. Doc. 89 at 266). The Court denies Ground
Three as refuted by the record.
D.

Ground Four

In Ground Four, Williams argues counsel was constitutionally
ineffective because he did not object to two of Williams’ prior convictions to
support his enhanced sentence as a career offender. (Doc. 8 at 8-9). Again, the
sentencing record refutes this claim.

Joffe did object to Williams’ prior

convictions at sentencing and claimed they “were being used multiple times.”
(Cr. Doc. 114 at 11-15). And Williams’ career offender status was confirmed
on appeal. See Williams, 718 F. App’x at 896-97. His argument supporting
this ground is “materially identical” to the claim he raised on direct appeal.
Hidalgo v. United States, 138 F. App’x 290, 293 (11th Cir. 2005).

Here,

Williams raises the career offender issue under the guise of an ineffectiveassistance-of-counsel claim. (Doc. 8 at 8-9). But Williams “cannot repackage
the same facts as a different argument” on collateral attack because any new
arguments, based on facts argued, are now procedurally barred. Id. at 294
(citing Lynn v. United States, 365 F.3d 1225, 1234 (11th Cir. 2004)). Because
Williams raised the predicate issue on direct appeal, the Court will not

13

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 14 of 16 PagelD 107

consider it again in his collateral motion. The Court dismisses Ground Four
as procedurally barred, refuted by the record, and otherwise without merit.
E.

Ground Five

In his final claim of ineffective assistance of counsel, Williams faults
counsel for failing to argue that conspiring to violate 21 U.S.C. § 841(a) was
“unconstitutionally vague.” (Doc. 8 at 12-21). The record does not refute the
factual accuracy of this claim. (Cr. Docs. 89; 90; 91; 114) (trial and sentencing
transcript). But this claim is without merit. Williams essentially attacks the
entire federal drug statutory scheme as facially unconstitutional. Further,
counsel could not properly challenge his prior predicate felony convictions at
sentencing.

United State v. Phillips, 120 F. 3d 227, 231 (11th Cir. 1997).

Finally, the Eleventh Circuit has already found that 21 U.S.C. § 841(a)-(b) and
846 are not vague. United States v. Ford, 270 F.3d 1346,1347 (11th Cir. 2001).
Thus, Joffe is not deficient for failing to argue a potential change in the law.
See Porter v. United States, No. 18-15082-F, 2019 WL 2452772, at *1 (11th Cir.
Mar. 27, 2019); Johnson v. United States, No. 2:06-cr-4-FTM-29SPC, 2012 WL
2996593, at *5 (M.D. Fla. July 23, 2012) (“Because the statute was not void for
vagueness or a standardless violation of due process, petitioner’s attorney did
not provide ineffective assistance by failing to challenge [it].”). The Court thus
finds Ground Five fails under Strickland’s deficiency prong.
Accordingly, it is now

14

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 15 of 16 PagelD 108

ORDERED:
(1) The Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence (Doc. 1), as amended (Doc. 8), is DENIED.
(2) The Clerk is DIRECTED to enter judgment, terminate any pending
motion as moot, and close this case.
(3) The Clerk is DIRECTED to docket this Opinion and Order in the
corresponding criminal file at 2:15-cr-149-FtM-38-MRM and terminate any
pending motions.
IT IS FURTHER ORDERED: A CERTIFICATE OF APPEALABILITY
(COA) AND LEAVE TO APPEAL IN FORMA PAUPERIS ARE
DENIED. A prisoner seeking a writ of habeas corpus has no absolute
entitlement to appeal a district court’s denial of his petition. See 28 U.S.C.
§ 2253(c)(1); see also Harbison v. Bell, 556 U.S. 180, 183 (2009). “A [COA]
may issue . . . only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(B)(2). To make such a
showing, Petitioner “must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims debatable or
wrong,” Tennard v. Dretke, 542 U.S. 274, 282 (2004), or that “the issues
presented were adequate to deserve encouragement to proceed further,”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (citations omitted).
Petitioner has not made the requisite showing. Finally, because Petitioner

15

Case 2:19-cv-00271-SPC-MRM Document 17 Filed 10/30/20 Page 16 of 16 PagelD 109

may not have a certificate of appealability, he may not appeal in forma
pauperis.
DONE and ORDERED in Fort Myers, Florida on October 30, 2020.

ylkuii yPoi

' SHERI POLSTERCHAPPEhfc^ '
UNITED STATES DISTRICT JUDGE

SA: FTMP-1
Copies: All Parties of Record

16

